<html>
<title> - TRANSPARENCY AND TRAINING: PREPARING OUR FIRST RESPONDERS FOR EMERGING THREATS AND HAZARDS</title>
<body><pre>[Senate Hearing 113-317]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-317
 
                  TRANSPARENCY AND TRAINING: PREPARING 
         OUR FIRST RESPONDERS FOR EMERGING THREATS AND HAZARDS 

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 25, 2014

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

88-285 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                 John Kilvington, Acting Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Begich...............................................     1
    Senator Heitkamp.............................................     2

                               WITNESSES
                        Tuesday, March 25, 2014

Mike King, Acting Director of National Training and Education, 
  Superintendent of the Center for Domestic Preparedness, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security.......................................................     4
Tim McLean, Chief, Casselton Fire Department, Wheatland, North 
  Dakota.........................................................     6
Lisa A. Stabler, President, Transportation Technology Center Inc.     7

                     Alphabetical List of Witnesses

King, Mike:
    Testimony....................................................     4
    Prepared statement...........................................    21
McLean, Tim:
    Testimony....................................................     6
    Prepared statement...........................................    27
Stabler, Lisa A.:
    Testimony....................................................     7
    Prepared statement...........................................    29

                                APPENDIX

The Forum Article................................................    41
Questions and responses for the Record from:
    Mr. King.....................................................    42


 TRANSPARENCY AND TRAINING: PREPARING OUR FIRST RESPONDERS FOR EMERGING

                          THREATS AND HAZARDS

                              ----------                              


                        TUESDAY, MARCH 25, 2014

                               U.S. Senate,        
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.
    Present: Senators Begich and Heitkamp.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Good afternoon and welcome to the 
Subcommittee on Emergency Management, Intergovernmental 
Relations, and the District of Columbia. We are here to examine 
the challenges posed to first responders by the transportation 
of hazardous materials over the road and rail and to discuss 
the opportunities that exist to train emergency response 
officials for this emerging hazard.
    I am happy to have Senator Heitkamp with us today. I know 
she will provide insight into the recent derailment of a train 
carrying crude oil through Casselton, North Dakota, and the 
role that first responders played in addressing the threat to 
the community.
    As the demand for domestic energy production continues to 
grow, so does the risk to the Nation's transportation 
infrastructure, including railroads and major transportation 
corridors that run through cities and small communities across 
the country.
    While this boom in production and demand is good for 
business, those who live and work along heavily trafficked 
transport routes must be assured their first responders are 
equipped and trained to address the incidences that may occur.
    The Chairwoman of the National Transportation Safety Board 
(NTSB) recently admitted the large-scale shipment of crude oil 
by rail simply did not exist 10 years ago and indicated that 
our safety regulations needed to catch up with this new 
reality.
    According to the Association of American Railroads'(AAR) 
Annual Report on Hazardous Materials, crude oil shipments by 
rail have increased more than 400 percent since 2005. The first 
responder community must prepare for any scenario and must be 
equipped and trained to respond to emerging threats driven by 
population growth or economic forces.
    Yesterday marked 25 years since the Exxon Valdez disaster 
affected residents, businesses, and wildlife throughout my own 
home State of Alaska. This disaster required a response from 
every level of government as well as the private sector and 
volunteer organizations. Events like this show the vital 
importance of local response and emphasizes the need to adapt 
to threats that emerge.
    Communities must know what to prepare for, and those that 
transport critical resources must be a partner in supporting 
safe transportation routes that help grow our economic sector.
    I look forward to hearing from our witnesses to discuss the 
Federal, State, local, and private sector role in the 
development of training for first responders. Assuring our 
emergency response personnel are ready for any type of incident 
is shared investment, benefiting communities across the 
country, and we must continue to support these efforts in the 
future.
    Let me pause there, and I will ask Senator Heitkamp to give 
some opening remarks. Then we will go to the panel. I will not 
be able to be here throughout the whole meeting. I am going to 
ask Senator Heitkamp to chair the full meeting once I depart, 
but I really appreciate the panel being here.
    Let me again turn to Senator Heitkamp, who has a very 
recent incident in her own home State. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you so much, Chairman Begich, and 
thanks for organizing this hearing. I think I have said way too 
often that as we look at this mammoth increase in the amount of 
crude oil that we are moving on the rails, it raises really 
three areas that we need to concentrate on:
    No. 1, the prevention of derailments. In a room much like 
this, we had a long conversation with a number of railroad 
officials on how we could provide better support for prevention 
of derailments.
    The second issue is really minimizing and mitigating the 
consequences of a derailment. In that case, we had a long 
discussion about tank cars and what should those tank cars look 
like. How should we classify the nature and the characteristics 
of the crude that is going into the tank cars? What do we need 
to do in terms of speed and routing to prevent catastrophic 
results if we have a derailment?
    So those are all critically important, which I am familiar 
with as a former Attorney General who worked very closely 
during my tenure not only with the Fire Marshals Service, under 
the jurisdiction of the Attorney General, but the entire fire 
service in the State of North Dakota. It is volunteers like Tim 
here, who is the chief of the Volunteer Fire Department in 
Casselton, North Dakota--I might mention my dad was chief for 
about 30 years in Mantador, North Dakota, so I know it can be a 
thankless job getting those guys to show up and do the 
training--and I know you guys do it well, and that is a huge 
part of our first response effort, especially in rural 
communities. Also I know we have someone here from the Federal 
Emergency Management Agency (FEMA) with whom we are going to 
have broader conversations.
    If we are going to continue what we think is this energy 
renaissance that has been so critical and so important to 
America's future, we need to figure out safety of the transport 
of this material.
    So, just to give you some idea on how quickly this has 
become an issue, and not to disagree with the Chairman on 
numbers, but we think there has been a 6,000-percent increase 
over 5 years of the amount of oil cars that is moving on the 
rails. I think that has raised questions not only in our State 
but across the country. I get many op-ed pieces, many letters 
to the editor, many articles from places all over this country 
that are seeing these key trains or these unit trains of oil 
saying, ``What do you want us to do?'' Or, ``Should we allow 
this in our community? '' It has really raised the issue of 
legitimate discussion about how we continue this energy 
renaissance, how we continue the transportation of this 
product, but do it in such a way that we have broad-based 
support.
    And to me, one of the first things that we need to focus on 
in preparation of our first responders, for really two reasons: 
No. 1, it will mitigate the loss of life and property in our 
communities and in our rural areas wherever these derailments 
take place; but equally important, it will minimize the loss of 
life of our first responders.
    I do not think in this country we take it for granted, but 
occasionally we just think, oh, the firefighters will show up 
and they will take care of the problem. And I think sometimes 
we do not understand the risk that is inherent with that 
commitment to the public safety. We saw that in Casselton with 
the Casselton Volunteer Fire Department, and we are so proud of 
what Chief McLean has done in our State. But he also, I think, 
has an experience that a lot of other folks have not had.
    What you cannot see from this photo is you cannot see the 
height of that explosion. And if I could show you the train 
underneath, it would just be a little line underneath that. In 
fact, that was so tall that the chief called the Federal 
Aviation Administration (FAA) and said, ``We have a problem 
with airspace over Casselton.'' And so I think when you look at 
that, I think any first responder, any person who has been 
trained, would say, ``What do you do with that?''
    And there is the good news, if there is any good news out 
of this. The good news is that it is out in the middle of a 
field, and the spill eventually ended up in a ditch. Because 
the ground was frozen, some of the environmental impacts of 
that spill were mitigated as well. But there is not anyone who 
does not look at that and say, ``What happens if that was in my 
community? What would we do? ''
    And so today I am hoping that we will continue this 
discussion with Federal officials and industry officials on how 
we can better prepare our communities, how we can better 
prepare our first responders. And I have to say I have not had 
any conversations with anyone in the railroad industry where 
they have not talked about first responders, where they do not 
understand and appreciate the commitment that is out there. I 
think as we look forward--we have spent a lot of time with the 
Department of Transportation (DOT) on a couple of the 
derailment and mitigation issues--it is only appropriate that 
FEMA is here as an important and significant Federal partner in 
providing that umbrella of training.
    No one likes to think like this, but it did not have to be 
a derailment. That could be an act of terrorism. We all know 
that type of event is one of the things we want to prevent 
those as much as we can. We are working to prevent any kind of 
event. But we also need to have the ability to appropriately 
respond.
    So I am looking forward to this discussion, and I am 
looking forward to the fact that this will not be the only 
discussion we have on this, that we will, in fact, be looking 
at follow-through and followup, and that we make this part of 
the discussion as it relates to this energy renaissance.
    Senator Begich. Thank you very much, Senator Heitkamp.
    Also, I am going to modify my own data point, because when 
you say 400 percent, it sounds like a lot, but actually the 
number when you look at it--and I am trying to remember the 
exact numbers, but 4 or 5 years ago, the total amount of train 
cars moving oil on tracks was about 4,000 to 6,000 cars in a 
year. Last year, 400,000 train cars moving oil on the tracks. 
This year it will go up again. The number is significant, and I 
think that is the point. I think every person may it be local, 
the private sector, the train operators is interested in making 
sure this moves in a safe manner, because as we both come from 
oil and gas States, we recognize the renaissance that is here. 
We are becoming more and more independent on our own sources of 
oil and gas. We will continue to be as time goes on. So it is 
not a question of this is temporary or this might go away. This 
is a reality, and how we manage it in the safest possible way 
is critical. And so this hearing--and I do want to thank 
Senator Heitkamp for requesting this hearing. This is an 
important conversation we all need to have.
    So, again, I want to thank the three panelists here, and I 
am going to go down this row here, and I will first introduce 
Mike King. You have the longest title, I want you to know: 
Acting Director of the National Training and Education, 
Superintendent of the Center for Domestic Preparedness, Federal 
Emergency Management Agency, U.S. Department of Homeland 
Security (DHS). In other words, you are the guy that helps to 
train the people to make sure it is safe. So I really 
appreciate you being here, and FEMA has always been very 
receptive to this Committee and attending and participating.
    So let me start with Mike, and then I will just introduce 
each one of you, then go right down the list, if that is OK.

TESTIMONY OF MIKE KING,\1\ ACTING DIRECTOR OF NATIONAL TRAINING 
   AND EDUCATION, SUPERINTENDENT OF THE CENTER FOR DOMESTIC 
    PREPAREDNESS, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. King. Chairman Begich and Senator Heitkamp, good 
afternoon. As I was introduced, I am Mike King of the Federal 
Emergency Management Agency, and I am the Acting Director of 
National Training and Education, and I am also the 
Superintendent of the Center for Domestic Preparedness in 
Anniston, Alabama. On behalf of Secretary Johnson and 
Administrator Fugate, thank you for the opportunity to discuss 
FEMA's training programs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. King appears in the Appendix on 
page 21.
---------------------------------------------------------------------------
    As you know, FEMA's preparedness grant programs have 
contributed significantly to the overall security and 
preparedness of the Nation. We are more secure and better 
prepared to prevent, protect against, mitigate, respond to, and 
recover from the full range of threats and hazards the Nation 
faces than we have been at any time in our history. This 
enhanced national preparedness is a direct reflection of our 
ability to plan, organize, equip, train, and exercise better at 
all levels of government.
    FEMA's training programs are designed to complement the 
programs within the State, local, tribal governments, and the 
private sector, while maximizing training resources and 
facilities owned by FEMA or operated by its training partners.
    To ensure that the training experience is high quality and 
is close to real-world as possible, FEMA uses world-class 
training facilities capable of simulating a variety of 
incidents and situations, including tanker car accidents and 
medical treatment and patient management in a fully operational 
hospital. In these specialized facilities, students can also 
detect, monitor, and sample toxic chemical agents, biological 
materials and radiation sources, and appropriately address 
explosive materials.
    FEMA's training and education programs provide specialized 
and advanced critical knowledge, skills, and abilities for the 
first-arriving emergency responder as well as for advanced 
technicians and specialists. They also incorporate an all-
hazards approach to terrorist acts, accidents, and natural 
disasters.
    These programs are facilitated by nationally recognized 
subject matter experts who hail from the community of practice 
at the State, tribal, local, and territorial levels of 
government. Each of FEMA's training and education institutions 
works closely with industry to keep pace with advancements in 
technology. This ensures the training offered includes the most 
current equipment, such as hazardous materials detection 
equipment, personal protective equipment, plume modeling 
software, and human patient simulators. These resources are 
critical for successful training and are not uniformly 
available through State, local, and tribal resources.
    In regards to hazmat training in particular, FEMA has 290 
instructor-led and 14 web-based training programs that directly 
relate to hazmat response operations, incident management and 
planning, health care, public health, environmental health, and 
emergency medical response to mass casualty incidents.
    Over the past 5 years, FEMA's all-hazards hazmat training 
has been delivered to more than 725,000 emergency management 
and response professionals from all 50 States, the six 
territories, and the District of Columbia. An additional 6 
million students have taken web-based training through FEMA's 
independent study programs.
    In addition to the annual reoccurring programmed training 
conducted by the FEMA enterprise, the fiscal year (FY) 2013 
Continuing Training Grants included a $1 million grant directly 
related to hazmat training for first responders, and FEMA 
anticipates funding an additional $2 million for hazmat 
training through the same competitive process in 2014.
    In summary, FEMA works to complement State, territorial, 
local, and tribal efforts to be prepared for hazmat incidents 
by providing sound, accessible, world-class training and 
education through their resident campus training, mobile 
training teams, and independent study programs. Ultimately, 
these efforts help our partners identify and address their 
capability gaps before an incident occurs--making them better 
prepared for potential hazards such as hazardous materials 
incidents.
    I want to thank you for the opportunity to discuss these 
important programs, and I am happy to answer any questions you 
have.
    Senator Begich. Thank you very much.
    Let me now introduce Chief McLean, Casselton Fire 
Department, Wheatland, North Dakota. Thank you very much for 
being here.

 TESTIMONY OF TIM MCLEAN,\1\ CHIEF, CASSELTON FIRE DEPARTMENT, 
                    WHEATLAND, NORTH DAKOTA

    Mr. McLean. Thank you. Good afternoon, Chairman Begich and 
Senator Heitkamp. I am Tim McLean, fire chief in Casselton, 
North Dakota. I was asked to appear before you today by Senator 
Heitkamp to highlight the importance of Federal grant dollars 
that support local emergency responders.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McLean appears in the Appendix on 
page 27.
---------------------------------------------------------------------------
    I have been with the department for 29 years and have been 
the chief since 2006. We are a small department with 28 
volunteer members. On average, we receive 100 calls for service 
per year and operate on a yearly budget of $89,000. The 
Casselton Fire Department covers 378 square miles of Cass 
County, North Dakota, which includes all or part of 12 
townships, the city of Casselton, and various small towns with 
a combined population of 3,680. We have approximately 50 miles 
of railroad tracks in our territory.
    On December 30, 2013, a train derailed just west of 
Casselton, North Dakota. Cars from the derailment came to rest 
on a parallel track. A tanker train carrying crude oil which 
was traveling on that parallel track collided with those cars, 
and the result was a large explosion and fire, the largest my 
department has ever encountered.
    With exception to the initial derailment, about everything 
went right that afternoon. Our local response was nearly 
flawless. From the outset, proper procedures were followed and 
good judgment was used. We had the foresight to secure the 
perimeter and not rush in and to realize early we needed our 
regional response hazmat team. The team was dispatched within 
10 minutes of the start of the incident. From the beginning, 
the Incident Command System (ICS) was used, and we formed a 
unified command with the sheriff and opened an emergency 
operations center.
    All of the steps we took resulted in a high-quality and 
efficient response to what could have been a catastrophic and 
deadly incident. The relationships that were in place among the 
responders and the relationship that we have with our State 
Department of Emergency Services contributed to our success. 
This efficiency allowed a great deal of planning to be 
completed which resulted in the early assessment about whether 
or not evacuations would be needed. As a result of the 
planning, the evacuations were planned, orderly, and executed 
perfectly.
    You might think we were just lucky. Even the mayor of 
Casselton said we dodged a bullet. But, in reality, the success 
of this entire incident is that everyone did their jobs, stayed 
in their lanes, relied on their training, and got the job done, 
and did it well. We had no injuries or fatalities, and that is 
what it is all about.
    We would like to pat ourselves on the back and tell 
ourselves how great we are; however, the reality is that we 
could not have been successful without Federal Homeland 
Security Grant dollars. Without this financial commitment and 
support, we would not have had the training or the equipment to 
properly respond to this fire. The regional hazmat team's 
equipment was purchased with Federal grant dollars, and the 
advanced training we have in ICS and the National Incident 
Management System is all made possible by these Federal grants. 
These grant dollars keep us current in our hazmat operations 
training and allow us to hold mock county disaster drills.
    And we have been able to update a lot of our equipment. The 
training that I have received through DHS/FEMA grants has 
taught me how to react to a disaster and what steps to take in 
the first few minutes on an incident. I know I used my training 
during the train derailment, which in turn helped in our smooth 
response. I think this incident should put all of us on notice. 
Because of the growing oil industry and the likelihood that oil 
will continue to be shipped via rail, we must continue to train 
and plan for these types of incidents. Yes, the tanker cars 
will likely be improved and the pipelines may be used more 
extensively, but that does not erase the fact that crude and 
other hazardous materials will continue to be shipped through 
our communities. Our responder community must be ready for 
that, and Federal grant dollars will greatly increase the 
likelihood that we will be ready.
    Senator Begich. Thank you very much for your testimony.
    Next I have Lisa Stabler, who is the president of 
Transportation Technology Center (TTCI). Thank you very much, 
Lisa, for being here.

  TESTIMONY OF LISA A. STABLER,\1\ PRESIDENT, TRANSPORTATION 
                    TECHNOLOGY CENTER, INC.

    Ms. Stabler. Thank you, Chairman Begich and Senator 
Heitkamp. On behalf of the members of the AAR and the dedicated 
professionals at the Transportation Technology Center, 
Incorporated, thank you for the opportunity to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Stabler appears in the Appendix 
on page 29.
---------------------------------------------------------------------------
    TTCI is a wholly owned subsidiary of the Association of 
American Railroads, and I am proud to say that we are among the 
world's foremost rail-related research, testing, and training 
organizations. Part of the training that we perform benefits 
our Nation's emergency responders. Today I will touch on rail 
industry emergency response efforts generally, but will focus 
on TTCI's role in these efforts.
    It is important to understand that the work that we do at 
TTCI to prepare first responders for a potential rail incident 
is only a small part of the work that is performed by the 
entire rail industry. All the major railroads have teams 
devoted to emergency response and maintain networks of hazmat 
response contractors and environmental consultants, 
strategically located throughout their service areas who are on 
call 24/7. Railroads work closely with State and local 
emergency first responders. In fact, each year, railroads 
provide training to more than 20,000 emergency responders 
throughout the country.
    In addition to these efforts, railroads support the work 
that we do at TTCI at our Security and Emergency Response 
Training Center (SERTC). Today SERTC serves the public sector 
emergency response community, government agencies, and 
emergency response contractors. Since it was founded in 1985, 
SERTC has provided emergency response training to more than 
50,000 people for surface transportation incidents, primarily 
on rail.
    Most of our training is advanced training that builds on 
basic training responders receive elsewhere. SERTC's 
capabilities in the areas of surface transportation are 
unmatched. We use realistic training props and scenarios, 
including live explosives, and pressurized air and water. Our 
600-acre training campus has more than 70 rail cars, including 
a 43-car derailed freight train, 7 passenger rail cars, 7 
simulated highway emergency settings, and a variety of highway 
vehicles and containers. Students have unlimited access to the 
valves, fittings, and containers commonly encountered in 
surface transportation emergency response, and students get to 
spend at least 50 percent of their time doing hands-on 
exercises featuring full-scale scenarios with real-life 
equipment.
    Today I am proud to say that SERTC is enhancing its 
emergency response training offerings devoted to crude oil in 
three major ways:
    First, we have developed a 4-hour general awareness crude 
oil training module that, as of March 1st of this year, has 
been added to all of our existing courses that have a rail 
nexus.
    Second, we are developing a new, much more comprehensive 3-
day training module specifically devoted to crude oil 
derailments. This class will cover topics such as the different 
types of crude oil, the types of tank cars used to transport 
crude oil, and the tactics and equipment to use when fighting 
crude oil fires that occur on rail. This class will become 
operational by July 1st of this year. It is a key part of a new 
$5 million effort by freight railroads to improve crude oil 
emergency response. The funds will be used to develop the 
program at TTCI-SERTC and to provide tuition assistance for an 
estimated 1,500 first responders to travel to SERTC to take the 
new course later this year.
    Third, SERTC is developing a new crude oil emergency 
response training video that is intended for local use, which 
we hope to have completed in the second half of 2014.
    Over the years we have the pleasure at TTCI to host 
numerous Members of Congress. I would like to offer both of you 
and the rest of your colleagues a standing invitation to come 
visit us so that you can see for yourself the ways that we are 
working to improve transportation safety.
    Finally, in 2007, Congress authorized the National Domestic 
Preparedness Consortium (NDPC), a consortium within DHS funded 
by FEMA. The purpose of the NDPC is to identify, develop, test, 
and deliver training to the Nation's first responders. Of the 
NDPC's seven members, only one TTCI/SERTC--is specifically 
designed to provide first responder training for surface 
transportation incidents. Unfortunately, since it was added to 
NDPC in 2007, SERTC has received only $10 million for FEMA for 
first responder training. But in the fiscal year 2014 omnibus 
appropriations act, Congress provided an additional $5 million 
to the NDPC, and FEMA has yet to allocate these dollars among 
the NDPC members. We hope that this Committee would agree that 
allocating these funds to enhance the capabilities of first 
responders for rail incidents and surface transportation would 
be a sensible step for FEMA to take.
    Thank you again for the opportunity to be here.
    Senator Begich. Thank you very much. I am going to start 
with my questions. Then I will turn it over at that point to 
Senator Heitkamp to lead the meeting as well as continue with 
the conversation.
    Ms. Stabler, you sparked some thought here. First, on the 
3-day program that you mentioned, about 1,500 people or so--
first responders, is what it targeted--but it is targeted at 
first responders in locations that have potential risk or high 
volume of rail cars with oil. I wanted to make sure I was right 
on that.
    Ms. Stabler. Yes, Chairman Begich, that is correct.
    Senator Begich. OK, Great. Second, I sit on the 
Appropriations Committee, so I have kind of a unique role here 
not only from this role of being here and the authorizing 
committee and other actions we take here, but you had mentioned 
in 2014 there was an additional $5 million added to the NDPC, 
and the funding level, that money had not yet been distributed 
but the thought you have is why not put that into this kind of 
area or and use that resource so we can better understand how 
to deal with potential risk when it comes to movement of oil 
cars. Is that right?
    Ms. Stabler. That is correct.
    Senator Begich. OK. But I think it is a very fair question, 
and it is a very fast growth we had about 4,000 of these train 
cars moving, but now we are up to 400,000 train cars for oil 
shipment. I am concerned that maybe the numbers do not match 
with the growth.
    Mr. King. Sure. In the 5 years from 2009 to 2013, FEMA 
spent about $843 million for training State and locals. FEMA 
has a very structured process to determine how to allocate that 
money. Some of it is----
    Senator Begich. That is a formula, right? Doesn't it have 
some base formula and they work from there?
    Mr. King. Well, we depend upon the States to do their 
assessments.
    Senator Begich. Right.
    Mr. King. They do their threat, hazard, risk assessments, 
the Threat and Hazard Identification and Risk Assessment 
(THIRA), and then they use that data along with the other 
assessments within the States to develop a State readiness 
report, State preparedness report. And based on the State 
preparedness reports, FEMA goes in and assesses those, and 
based on the gaps that are identified and the core capabilities 
across the Nation and across the States, they look at the 
funding that is available, the subject areas that need that 
money attributed to it, and then we allocate the funding 
accordingly.
    Senator Begich. Well, I am going to leave with just a 
couple more questions, because I know Senator Heitkamp is 
chomping at the bit.
    But here is my question: So you get these reports from 
local governments, and State predominantly. They come from in 
our State, or from local government to State, it is a 
combination. Not always the case because we had a little 
discussion of some States that are not very responsive to their 
local governments, but put that aside for a second.
    The assumption is that they go from local to State, and the 
State develops the plan. It shifts to you guys. You review it, 
then you allocate based on a variety of factors, but you 
allocate based on the State plan.
    So you at any time look at those plans--and I will use 
North Dakota as an example--say, wait a second here, you have 
an emerging threat or risk that your plan is not addressing, 
and then emphasize it to say, look, we cannot accept this plan 
as it is drawn because--and I will use again North Dakota--what 
you say in 2009, 2010, or 2011 is dramatically different than 
2014, 2013, in regards to the movement of oil on trains.
    Do you insert yourself at any point? Or do you just accept 
it and then do the formula?
    Mr. King. The States prepare a State preparedness report 
every year.
    Senator Begich. I understand.
    Mr. King. And in 2013, 77 percent of the States and 
territories indicated there is not a training gap in the 
hazardous material area, and 23 percent indicated that there 
were.
    Senator Begich. OK. I am going to leave--I know the 
specifics are going to be right to North Dakota, about what 
their plan said and how you reacted. But I think my issue is 
obviously how does that play into it.
    Let me ask you another on a budget issue. The 2014 enacted 
budget for education, training, and exercises was $234 million. 
This year, it is about $131 million cut.
    Now, my guess is it is how they restructured the budget. I 
am not sure, but I just need to understand that. And if you do 
not have it here, I want to give you the chance to bring back 
to record. Has training been cut or are there reallocations 
based on some consolidation that has been proposed and some 
other things? I need to understand what has happened to the 
training and exercise and education budget, because it looks 
like it has gone this way rather than at least stable. But that 
is because the one line item dropped is what I am looking at. 
So could you respond now? If you cannot, let us have it for the 
record, to be more detailed. Is that possible?
    Mr. King. Yes. I would prefer to defer that until I can get 
the actual numbers and respond back to you.
    Senator Begich. That would be great. I would love that.
    The last question I have, and I want to thank the chief for 
being here. I know what it must be like. When I was sitting 
here--and I do not know if you noticed--when you were just--
maybe you were not because you were looking at your testimony. 
When I turned to Senator Heitkamp and I thought, $89,000 for a 
whole year budget. I ran a pretty large size city, mayor of 
Anchorage, almost at that time 270,000 people. We had a huge 
multi-million-dollar budget. So I am trying to understand your 
dependence on grants from FEMA and others is critical. Am I 
reading that wrong? Because I am thinking $89,000, there is no 
way you can do the training that you need in a variety of areas 
for first responders for that budget. Am I missing that?
    Mr. McLean. No. That is correct.
    Senator Begich. OK. So Federal grants are very important.
    Mr. McLean. All of the rural volunteer fire departments 
depend so much on grants because--and we have been waiting 
since 2001, was our last new engine, and we have been saving 
since then, and we still do not have enough money to outright 
buy one.
    Senator Begich. And all they do is go up in cost. I do not 
know what they are, $400,000, $500,000 probably now?
    Mr. McLean. The one we are looking at is going to be about 
$400,000.
    Senator Begich. Yes, they have gone up, fairly expensive. 
So I want to give you a challenge maybe at a later time. I know 
in the FEMA budget, which we had a hearing--was it last week? 
Last week, the week before? Two weeks ago. One of the things 
they are looking at is how to consolidate some of the grant 
programs, but how it might affect local governments or in your 
case first responders? And I know you have a small department. 
You probably do not have a lot of time to do other things. But 
I would be very interested in your comment, and it could be, 
Senator Heitkamp, on how you look at this next year's budget 
and consolidation, how it might affect you in a positive or 
negative way, because in the hearing we had 2 weeks ago, I was 
concerned about local governments and what may happen, because 
in a fully staffed, paid-for fire department it is a little 
different. In a volunteer fire department, which is 
predominantly most fire departments in this country, it is 
training grants, equipment grants, and in some cases--I know we 
have used them in some of our small volunteer ones out in rural 
parts of Alaska for bringing in internships or folks to be 
trained that we might hire if they live in the community.
    So I would be very interested in your input. You do not 
have to do it now, obviously, but our staff will get you some 
information to review, and then maybe Senator Heitkamp can 
inform me, as we deal with the appropriations process and what 
we are doing in this Committee, because I am just shocked, 
actually. That is a small amount, but for the amount of people 
you have on, that is a great bang for the buck. And I will tell 
you, whoever is in your community should be thanking you every 
day for running that fire department at that kind of cost. That 
is fantastic.
    Let me end there.
    Mr. McLean. Thanks.
    Senator Begich. Thank you. Senator Heitkamp.
    Senator Heitkamp [Presiding.] I would suggest to Senator 
Begich that $400,000 for an engine is a lot of fish fries, 
right? It is a lot of hard work and fundraising. I mean, we 
expect these guys to run to the fire, a dangerous fire like 
what you have just seen, but we also expect them to raise the 
money and provide the support and the community enthusiasm for 
the volunteer fire department, because none of these 
jurisdictions could afford full-time fire service. You heard 
his testimony. You must have been a little proud when you heard 
his testimony.
    Mr. King. Very much.
    Senator Heitkamp. You heard that he believes that a lot of 
his first reaction, the chief's first reaction, is really 
because of the training that he received, the training that we 
made a commitment to. I want to followup a little bit on 
Senator Begich's point of view, which is why in the world when 
we are seeing increased awareness of crude oil cars moving in 
interstate transportation, everybody says, well, that is a 
North Dakota issue. That is not a North Dakota issue. This is 
an issue that affects every jurisdiction in America, and we 
have seen it from the challenges that the industry has had, 
whether it is down in Alabama, whether it is in North Dakota, 
whether it is up in Canada. And so why would we not refocus 
some effort on the area of crude on rail. I would suggest maybe 
what you are going to see in your next survey may be people 
saying this is something we need to focus on. I would just like 
your comment on where you see a restructuring or rethinking of 
what you do at FEMA in light of what happened in Casselton, in 
light of what happened in Lac-Megantic, in light of what 
happened down south with incidents that did not cost lives but 
certainly created a lot of concern.
    Are you guys going to continue to use the formula that you 
are using to allocate resources?
    Mr. King. We have a very structured process, and we will 
look at the needs across the Nation, and we have the amount of 
funding that we have, and we will stretch that funding as far 
as we can to get the most attention toward the gaps that have 
been identified.
    Senator Heitkamp. Well, we think you have $5 million now 
that you might be able to spread around a little bit to begin 
to have those discussions.
    Are you guys committed to doing something with that $5 
million that could, in fact, expand the capacity of our rural 
fire departments and our local fire departments to respond to 
this kind of threat?
    Mr. King. The funding for the National Domestic 
Preparedness Consortium is being looked at right now, and those 
decisions are being made.
    Senator Heitkamp. I just for a moment want to talk about 
the aftermath of 9/11 and everyone focusing on where the 
threats are, what are we concerned about. And obviously the 
threat to transportation is, No. 1, you would knock out a major 
hub and cause economic disruption, but also that you are moving 
a lot of product on the rails that presents some unique 
challenges. Perhaps it is moving beyond derailments and moving 
to somebody who might want to hurt this country looking at a 
target that is less protected than a chemical plant that has a 
barbed-wire fence with razor wire above it and security 24/7. 
Right?
    So a lot of these chemicals that we know could cause a huge 
amount of damage are moving in interstate transportation, and 
it seems to me that you may not always know what interstate 
highway they are on, but you are going to know what railroad 
they are on.
    And so I guess what I am trying to impress upon you is the 
importance of thinking beyond just local preparedness reports 
and thinking about national threats, thinking about how you 
would approach this as a conduit to the need to move product in 
interstate transportation, interstate commerce.
    I would be curious about that discussion that you would 
have with the local folks, because I understand and really do 
applaud your interest in making sure that the local voice is 
heard and that you are taking the lead locally. But there also 
is overriding Federal considerations that you also should be 
taking into consideration as you look at national interests 
that may not be reflected. Because folks see the railroad and 
that 1 mile that goes through their town or the 1 mile that 
goes through the city as opposed to the whole conduit of the 
rail system. There is a reason why the Founding Fathers put us 
in charge of interstate commerce, right? And so I think what 
you do is hugely significant to interstate commerce.
    And I, too, would be really interested in hearing about, as 
Senator Begich suggested, the continuing plans for FEMA, but I 
think one thing you could take back is that in this situation 
the fire chiefs sure threw you a very nice compliment in terms 
of being prepared and having access to equipment. But, not 
everybody took advantage of these training opportunities like 
the Casselton Fire Department.
    I want to get back, Ms. Stabler, to the industry and the 
work that you do. In some ways, the concern that I have is that 
everybody knows what you are doing and you are out there doing 
it, but who really knows where you are in terms of first 
responders? How do you do outreach to local communities? How 
are you going to select maybe those 1,500 that are going to get 
a tuition waiver? How do you plan on deploying these great 
ideas so that, in fact, not just the Casselton Fire Department 
but the Fargo Fire Department and Grand Forks Fire Department 
can be kept in the loop in terms of what is available?
    Ms. Stabler. Well, Senator Heitkamp, thank you for that 
question, and really the joy of being part of the Association 
for American Railroads and the North American rail industry is 
that I am not doing this alone. We are part of an industry that 
is dedicated to improving the safety of the goods and the 
people that we transport.
    When you look at the fact that TTCI is a very small 
organization--we only have 270 employees out in Pueblo, 
Colorado--we have to remember that we are part of the bigger 
rail industry, and really that we are going to be depending 
upon that rail industry to help us get the word out about this 
training that we do in Pueblo, Colorado.
    The training that we do is really at a graduate level. It 
is the same as if you were going to get a master's degree or a 
Ph.D. There is a lot of other training that is done, not only 
by DHS/FEMA but also by the rail industry, to try to get 
awareness level training, even operations level training, to 
local communities with a number of different programs that are 
in place by each one of the railroads.
    And so, first of all, from an outreach perspective, we are 
going to depend upon those railroads to continue that training, 
to use some of the information that we will be making available 
later this year specifically with crude by rail to help augment 
what they do; and then, in addition, to continue to work with 
DHS and FEMA as a member of the National Domestic Preparedness 
Consortium to make certain that the training that we do is 
known to that organization and made available as necessary.
    Senator Heitkamp. How would you grade DHS' courses and 
first responders as it relates to surface transportation on the 
rails?
    Ms. Stabler. Well, I think since most of the courses that 
DHS/FEMA has for surface transportation are the ones----
    Senator Heitkamp. No, but I meant overall in terms of 
prioritization along with the quality of the training.
    Ms. Stabler. Well, the course quality is excellent because 
the ones that are available are from TTCI, from SERTC. We have 
several courses that have been approved through NDPC and are in 
the Federal catalogue. Overall, hazardous material response 
training I think is very good. Rail transportation, surface 
response training is a specialized area, and so I think that is 
where the consideration needs to be given not only to hazardous 
material training to respond to a fire in a building or to 
respond to a structure, but also to respond to the very 
specialized area of surface transportation.
    Senator Heitkamp. Let me ask the question this way: If you 
had his job, what would you be doing differently?
    Ms. Stabler. Well, certainly there are a lot of things that 
I would be doing much the same. I think that you have to listen 
to the local communities to see what it is that they need and 
try to meet those needs. Certainly, though, I do believe that, 
given the data associated with crude by rail transport and 
surface transportation in general, that is an area that should 
be looked at.
    Senator Heitkamp. In what way?
    Ms. Stabler. Well, one of the ways----
    Senator Heitkamp. If we are going to, I think, address this 
in a broader spectrum, we cannot keep doing what we are doing. 
We need to have more outreach to the local communities, to the 
local first responders. We need to be providing this training 
so local communities, not just first responders but local 
communities, say, OK, now I have a confidence level that my 
fire department, whether it is full-time like you would see in 
Fargo or whether it is rural fire departments, which are 
volunteer fire departments, is prepared to respond and knows 
what they are doing.
    So I think there is now a level of uncertainty out there 
among the American public. What can we do to respond to those 
concerns? And what more should we be doing to give them a level 
of comfort that we are prepared for a disaster?
    Ms. Stabler. Well, I think that that is where the rail 
community needs to continue the outreach that it has been doing 
and has committed to doing in the future. There are a number of 
different programs that have been in place with different types 
of safety trains, different types of outreach to local fire 
departments and local law enforcement. If you also look there 
as industry level response, that does the same thing with 
hands-on training that is taken to the local communities as 
much as possible from a smaller scale than what is done at 
TTCI.
    Senator Heitkamp. And I would suggest one of the things 
that we have not talked about is the men and women who are on 
the rails to begin with, who de facto may become the first 
responders. That was true in the Casselton case where one of 
the employees of Burlington Northern on the grain train that 
derailed actually had fire training and was able to assess the 
situation and pull cars back, which I think prevented 
additional catastrophic results.
    And so, I would suggest that we have a whole other group of 
people we have not talked about, which are the men and women 
who may be feeling less secure if they are on the rails today 
transporting this product.
    My final question for you is: Are you aware of any type of 
mapping capability that would give DHS a better idea of where 
potential risk exists to preemptively target those areas at 
greater risk and to prioritize those areas for additional 
training?
    Ms. Stabler. I am not aware of anything that would be very 
specific to mapping risk other than taking a look at where 
crude oil would be transported, and certainly that is something 
that if that would help DHS/FEMA, we would be more than happy 
to work with them on.
    Senator Heitkamp. I think that would be, just in terms of 
looking at heightening awareness within the first responder 
communities and within the emergency services and States and 
those people who are responsible for responding to hazmat 
incidences. Chicago might be one area you might want to look 
at. You might want to look at narrow confines with a lot of 
structures nearby, those kinds of issues that may present some 
unique circumstances for first responders.
    Getting back to you, Mr. King, can a local responder be 
expected to get appropriate training for emergency responses in 
hazmat incidences within the time constraint and limited 
funding? And by that I mean, we have so many things that are 
now getting our attention, and I think one of the issues that 
we are concerned about is finding time to do this and making 
this a priority. Let us put it this way: What is your 
assessment of the current preparedness of first responders in 
the event of an oil tank derailment nationally?
    Mr. King. Well, first, when we are talking about hazardous 
materials, we are talking about the outcome of the event, 
regardless of whether it was a train or tanker car or chemical 
spill from an industry or whatever. The fireman has to be 
prepared to go and deal with the outcome of that event. And 
the----
    Senator Heitkamp. But can I just interrupt you there? 
Because, I am somebody who used to be on the board of directors 
of a chemical plant, and we have a whole moat around the 
chemical plant; we have firefighters right in place. We knew 
exactly what we were going to do in the event of a fire.
    Here you have a moving event, and so, I understand saying--
look, I keep asking you to segregate the train from the plant 
or from other kinds of hazardous material spills, and I am 
really interested in a focus on the train.
    Mr. King. Right, but--I understand. The hazardous materials 
training is predominantly done at the State level, the initial 
training. What FEMA is trying to do is expand that with more 
advanced training for the hazardous materials specialist as 
well as providing training to all firemen, policemen, the other 
first responders, so when they become the first response to an 
incident they know the proper steps to try to save the lives, 
take the appropriate steps to protect the environment and 
protect property, until the hazmat team or the other response 
agencies are able to get there and show up.
    Of all of the FEMA training courses, more than 75 percent 
deal with a hazardous material incident. That is both the 
actual hazardous material response, but it is also the incident 
command and management, such as Chief McLean referred to, as 
well as the medical response that could have come from that.
    Several years ago, there was a train wreck down in South 
Carolina of a chlorine tank, and there were 250 casualties and 
I believe 14 deaths associated with that incident because of 
where it happened and what they were taking and the chemical 
that was dispersed from it.
    So those three areas are critical to the entire hazmat 
response, and we are working very hard to train all of the 
response community in those subjects so they are better 
prepared to address it.
    Senator Heitkamp. Would you expect in your next round of 
State requests that you would see more requests for training as 
it relates to the rail?
    Mr. King. Anytime there are more incidents, that carries 
into the assessment of the core capabilities within that 
jurisdiction.
    Senator Heitkamp. How do you think we could improve the 
services, especially in rural communities? When you look at 
Casselton, a lot of people would not know where that is. But it 
is only about 20 miles from Fargo. Fargo is our major city, has 
the largest capability of response. Obviously a very large 
sheriff's department which could assist the chief in terms of 
evacuations.
    I mean, it may sound like it is out in the middle of 
nowhere to folks, but those of us in North Dakota know that the 
relationship between West Fargo and Casselton is narrowing. 
Then this could also have happened in rural Dunn County, which 
is much more isolated, where first responders may be used to 
fighting a grass fire, but they have had no experience at all 
in terms of hazardous material. They may have focused in the 
past their mind on a grass fire, which, trust me, can be very 
dangerous for our first responders as well.
    So how do we build awareness of the responsibilities that 
we all have to make sure first responders are appropriately 
trained and that we get this right across the country?
    Mr. King. Well, you bring up a very valid point because 75 
percent of America is categorized as rural by the Census, and 
we work very closely with the States to ensure that we are 
providing training services to the entire State, regardless of 
the jurisdiction. Our courses are specially molded to be no 
more than 1 week in length, generally speaking, to accommodate 
the local responders. The homeland security grants provide 
funding. An acceptable expense is for the overtime or the 
backfill for those fire, police, or other responders that 
attend our training.
    The Rural Domestic Preparedness Consortium is a special 
group that was founded in 2005 of small colleges that focus on 
rural response, and they have specifically developed and are 
delivering a rail tanker hazmat training course that 
specifically is geared toward rural response of this type of an 
incident. As I mentioned in my opening statement, last year we 
allocated an additional $1 million specifically to address 
hazmat, and this year we have increased that to $2 million in 
the competitive development process.
    So we certainly recognize that hazmat is a large problem 
associated with possibly any incident that the emergency 
responder has to respond to, and we are trying to make sure 
that we give them the knowledge, skills, and abilities they 
need to safely and effectively address the situation.
    Senator Heitkamp. Yes, and not to belabor the point, but, a 
$2 million increase in light of the percentage increase that we 
are seeing of these materials moving on the rails seems like it 
does not quite meet the challenges. And so, what I hope that we 
can get out of this is kind of a national structure that relies 
on the expertise of the industry and the training capability, 
the excellent training capability of FEMA to really produce a 
pot. It sounds like it is already moving in the right direction 
with the video and then we are looking at something that is 
much more intensive, but to really begin to have this 
discussion.
    And, I will tell you, not to bring up a bad subject, but 
when I was Attorney General, we had very high profile school 
shootings. No one thought that they ever had to train for that 
kind of event. But because of those events, schools started 
training for those kinds of events. I think it has made a 
difference across the country, and no one likes to believe that 
they are going to see this kind of event in their backyard or 
in their community, but there is no guarantee that they will 
not. That is why it is so critical that, as people are thinking 
about what their needs are, whether it is rural Dunn County or 
whether it is Casselton, whether it is Fargo or Grand Forks, 
Minot, Bismarck, bigger cities, that they have the capability 
to know where to go to get that specialized training and to 
understand the dynamics of this.
    I want to kind of close this out with a couple questions 
for the chief. He thinks he has gotten off easy. He was kind of 
hoping I would not ask him any. He is, like, yes, I survived, 
because this is what is true in North Dakota. People are pretty 
humble, and they just--as you said, we are not patting 
ourselves on the back because we did our job, but we were able 
to do our job pretty effectively because of the training that 
was provided nationally and the support that they have from 
FEMA. Do not ever forget that. That is a good-news story, but 
it does not mean that we rest on our laurels here and say our 
job is done. We did well, we are through that impasse, but this 
is not the first time we are confronting this, or the last. 
This is not the first and it will not be the last.
    But I would like to ask the chief, if you were going to 
give advice to anyone in your situation, volunteer fire chief, 
dealing with a lot of guys who are volunteering and they are 
coming in not as professionals, but they are coming in as 
farmers and ranchers and, local business people, coming to a 
fire that they may or may not know what they are getting 
themselves into--what advice would you give to other chiefs 
across the country in terms of being ready and prepared?
    Mr. McLean. Well, for the minimum part, at least to learn 
how to read the Emergency Response Guide (ERG). It gives you 
all your placard numbers and your evacuation distances, and it 
covers the information of the chemical and the hazard that is 
in hand there. That is at least one thing, if you read that, 
you will know what it is, you will know not to get within a 
certain distance before you rush up there and find out it is 
too late. And at least maybe the minimum amount of hazmat 
training.
    We are in the hazmat operations because we rely on Fargo 
hazmat. They are the paid department. They are technicians, so 
we rely on them. But our operations, we can identify what it 
is, we can do the evacuation, and the perimeters, we can secure 
those. We can do the diverting and the diking and the de-con, 
but that is as far as we go. We rely heavily on the paid 
department for regional hazmat on that part.
    Senator Heitkamp. So the real advantage here is to 
understand the role of containment.
    Mr. McLean. Yes.
    Senator Heitkamp. And the role of the people who actually 
have the very specialized training.
    Mr. McLean. Yes, and identification is the biggest thing.
    Senator Heitkamp. I guess this goes back to you, Lisa. 
Wouldn't it be great if every fire chief had an app and every 
volunteer fire department had an app that they could simply 
plug in and say here is what we recommend?
    Ms. Stabler. Well, that is something that should be 
available in the later half of 2014. And certainly when you 
look at the information that is available for hazardous 
material, there is training that is available that teaches how 
to use the manuals that the chief spoke of. But there is also 
information that is available in the front of the train, in the 
locomotive, that says here is what is on every car and gives 
you an idea of the commodity that is in there and the 
classification of that commodity.
    Senator Heitkamp. What happens if they do not want to get 
too close to that car?
    Ms. Stabler. Later on this year, they hopefully will not 
have to because that will become electronic.
    Senator Heitkamp. Electronic. And so I think in this 
information age we can look beyond opening up a book and start 
looking at how do we provide this information. As he said, 
their role really is first responders. You look here, you can 
see exactly that attention to the safety of the first 
responder. You do not get too close. You have to know what you 
are doing. But, again, Fargo was just, what, 15, 20 minutes 
away. And so, I mean, this is not typical in North Dakota that 
you would have that level of professional fire service--and by 
``professional,'' I mean paid fire service--that close.
    Looking back, if you were going to change any of the things 
that you did, what would you change, Chief? Wouldn't have 
volunteered to be the chief, right? [Laughter.]
    Mr. McLean. Probably nothing, because everything went so 
smoothly in this because of the location of where the fire and 
the derailment was at. Now, if it was in town, then we would 
probably be talking about a few more other problems we would 
have had.
    Senator Heitkamp. But right now your challenge is, isn't 
it, to imagine if it were in town, what would you do?
    Mr. McLean. Well, if it was in town--we have had this 
discussion in our department a few times now lately. We would 
probably draw just an imaginary line and said we are going to 
save from here back and the rest of it we are going to just 
make sure everybody is out of the way and everybody is safe and 
do rescues. And we would have to sacrifice buildings.
    Senator Heitkamp. You would have to sacrifice property.
    Mr. McLean. Yes, and do just containment on structures that 
would be in the outer perimeter, like out of the hot zone.
    Senator Heitkamp. I think it is a good-news story, which is 
that you guys did a great job helping provide preparedness to 
the Casselton Fire Department. You guys are doing some great 
work in imagining what those what-ifs are and how do you train 
for those, how do you get a broad-based kind of support out 
there not only for, as you said, the Ph.D.'s but also the 
freshmen in the class who only need a certain amount of that 
information.
    But if we are going to continue, as I said in the 
beginning, this energy renaissance, we know we are going to 
continue to move, and appropriately, Bakken crude or other 
forms of crude on the rails in this country. That has created a 
new opportunity for us to do a lookback at DOT and start 
talking about positive train control, what is holding that up, 
start looking at decisions relative to how do we test the gauge 
of the rails; how do we make sure we prevent derailments; how 
do we do everything we can to create a new-generation tank car 
that will provide some puncture resistance and avoid those 
kinds of results; how do we look at routing decisions; how do 
we look at speed decisions that will maximize safety.
    But there is another role for another Federal agency in 
this, and that is FEMA, to look beyond just what you are 
hearing today from the local folks and think about kind of the 
consequences to the country of this product moving across the 
rails and how we can create a greater opportunity for training 
and a greater opportunity to first and foremost keep our 
communities safe, but also keep our first responders educated 
to the point where they know exactly what it is that they need 
to do.
    And so I look forward to ongoing discussions with FEMA 
about resources, look forward to, I think, a lot of discussion 
back in North Dakota with first responders, and finding out 
what their needs are and reporting those back, and then taking 
those great products that you build on behalf of the rail 
industry and making sure that they are not on some shelf 
somewhere or just not listened to, that we are getting those 
out in a very systematic and planned way so that we can broaden 
the safety quotient.
    And so thanks so much. You guys have been a great panel. 
Like I said, I think this is the third leg of the stool as we 
go forward, and I am putting as much attention on this as I am 
on any tank car, so just know that I might be a pain in your 
side for a while, but I want to make sure that our first 
responders have the tools that they need.
    The Chairman left me in charge, it does not happen very 
often for someone who has only been here for a couple months. 
So the hearing record will remain open for 15 days for Members 
to submit statements or additional questions. We ask that the 
witnesses respond to these questions in a timely manner.
    This concludes our hearing, and I want to thank you for 
your participation today. This Subcommittee is adjourned. Thank 
you.
    [Whereupon, at 3:41 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
